Vibrant Credit Union

CREDIT CARD AGREEMENT

1900 52nd Avenue
Moline, IL 61265
(309) 796-7500
BORROWER 1

ACCOUNT NUMBER

BORROWER 2

DATE

In this Agreement, “You” and “your” mean any person who accepts this Agreement or uses the Card. The “Card” means any credit card issued to you or those designated
by you under the terms of this Agreement. “We”, “us”, “our” and the “Credit Union” means Vibrant Credit Union or its successors. By using your card, you agree to all of
the terms and conditions set forth herein.
Ownership of Card. Your Card remains our property and may be cancelled by us
at any time without notice. You agree to surrender your Card and to discontinue
use of the account immediately upon our request.
Interest Charges. You agree to pay interest at the rate(s) disclosed to you at the
time you open your account and as may be changed from time to time in
accordance with applicable law. Average Daily Balance including new
transactions: Interest Charges will accrue on your average daily balance
outstanding during the month. To get the average daily balance, we take the
beginning balance each day, add any new purchases, cash advances, balance
transfers or other advances, and subtract any payments, unpaid interest charges,
and unpaid late charges. This gives us the daily balance. Then, we add up all the
daily balances for the billing cycle and divide that by the number of days in the
billing cycle. We then multiply that by the periodic rate corresponding to the Annual
Percentage Rate on your account. If you have different rates for purchases, cash
advances or balance transfers, separate average daily balances for each will be
calculated and the appropriate periodic rate is then applied to each.
Using Your Card. You can purchase or lease goods and services from any Grace Period on Purchases Only: You can avoid Interest Charges on purchases
merchant who honors your Card, and you may obtain cash advances from financial by paying the full amount of the new balance for purchases each month by the
institutions and ATM machines that accept the Card, up to your maximum credit limit. date on which the payment is due. Otherwise, the new balance of your account,
You agree not to present your Card or obtain a cash advance for any extension of and subsequent advances from the date they are posted to the account, will be
credit in excess of your available credit limit; however, if you do exceed your credit subject to an Interest Charge. You cannot avoid Interest Charges on cash
limit, you agree to make immediate payment sufficient to bring the balance below the advances and balance transfers; even if you pay the entire cash advance balance
credit limit. Certain purchases and cash advances require authorization prior to or balance transfer balance by the payment due date, you will incur the Interest
completion of the transaction. In some cases, you may be asked to provide Charges accrued from the date the cash advance or balance transfer is posted to
identification. If our system is not working, we may not be able to authorize a your account.
transaction, even though you have sufficient credit available. Also, for security Fees. In addition to the Interest Charges set forth above, you agree to also pay
reasons, we may block the use of your Card in certain countries or geographic areas. any and all fees that you incur as disclosed to you on your Truth-in-Lending
Statement or similar disclosures (as may be amended from time to time), or as
We will have no liability to you or others if any of these events occur.
Personal Identification Number (PIN). We may issue a Personal Identification disclosed to you during the term of your Card.
Number (PIN) for use with your Card. This PIN is confidential and should not be If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You agree to
disclosed to anyone. You may use your PIN and your Card to access your account, notify us immediately if your Card is ever lost or stolen or if an unauthorized use
and all sums advanced will be added to your account balance. In the event a use of may have occurred. "Unauthorized use" means the use of the Card by someone
your PIN constitutes an Electronic Funds Transfer, the terms and conditions of your other than you who does not have actual, implied or apparent authority for such
use, and from which you receive no benefit. The telephone number to call is (800)
Electronic Funds Transfer Agreement may affect your rights.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases, cash 323-5109. You agree to follow up your call with notice in writing to us at: 1900 52nd
advances, and balance transfers made by you or anyone whom you authorize to use Avenue, Moline, IL 61265. You also agree to assist us in determining the facts,
the Card; (b) all Interest Charges and all other charges or fees as allowed by law; (c) circumstances and other pertinent information relating to any loss, theft or possible
collection costs and attorney's fees as permitted by applicable law, and any costs unauthorized use of your Card and comply with such procedures as we may
incurred in the recovery of the Card as allowed by applicable law; and (d) credit in require in connection with our investigation. You will have no liability for Mastercard
transactions not authorized by you, provided that you have exercised reasonable
excess of your credit limit that we may extend to you.
care in safeguarding the Card from risk of loss or theft, and upon becoming aware
Illegal Transactions. You agree that your Card and account will not be used to
of such loss or theft, you promptly report the loss or theft to us.
make or facilitate any illegal transactions as determined by applicable law; and that
any such use will constitute an event of default under this Agreement. We may Minimum Payment Due; Crediting of Payments. Payments are due in the
decline any transaction that we believe to be illegal under applicable law, including amount and on the date disclosed on your billing statement. If your payment is
but not limited to any transaction involving or relating to any gambling activity. You received by us on a business day at the address and by the time designated on
agree that we will have no liability or responsibility for any such use by you or any the billing statement, it will be credited to your account on the date of receipt. If
authorized user(s); or for declining any such transaction. You further agree to payment is made at any location other than the address designated on the
indemnify and hold us harmless from any suits, liability, damages or adverse action periodic statement, credit for such payment may be delayed up to five (5) days.
of any kind that results directly or indirectly from such illegal use. You promise to pay Payments will be applied in any order we determine, subject to applicable law.
us any and all amounts owing on your Card for any transactions made by you, even Default; Acceleration; Credit Suspension; Collection Costs.
if the transaction is determined to be illegal.
Default: The following provision applies to borrowers in Idaho, Kansas, and
Joint Accounts. Each of you will be responsible, jointly and severally, for the Maine: You will be in default if (1) you do not make a payment of the required
repayment of amounts owed, regardless of who initiated any transaction under the amount when due; or (2) we believe the prospect of payment, performance, or
realization on any property given as security is significantly impaired.
account.
Others Using Your Account. If you allow anyone else to use your account, you will The following provision applies to borrowers subject to the Wisconsin
be liable for all credit extended to such persons. You promise to pay for all purchases Consumer Act: You shall be in default under this Agreement if any of the following
and advances made by anyone you authorize to use your account, whether or not occur: (a) you fail to make a payment when due on 2 occasions within any 12you notify us that he or she will be using it. If someone else is authorized to use your month period; OR (b) you breach any term or condition of this Agreement, which
account and you want to end that person's privilege, you must notify us in writing, and breach materially impairs your ability to pay amounts when due or materially
if he or she has a Card, you must return that Card with your written notice for it to be impairs the condition, value, or protection of our rights to or in any collateral
securing this transaction.
effective.
9011 LASER FPDF FI15970 Rev 8-2018
COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.
page 1 of 3
THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR
THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST
IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH US NOW
AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT EXTENDED
UNDER THIS AGREEMENT. YOU ALSO AGREE THAT WE HAVE SIMILAR
STATUTORY LIEN RIGHTS UNDER STATE AND/OR FEDERAL LAW. IF
YOU ARE IN DEFAULT, WE CAN APPLY YOUR SHARES TO THE
AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other account
that would lose special tax treatment under state or federal law if given are not
subject to this security interest.
If you have other loans with us, collateral securing such loans will also secure
your obligations under this Agreement, unless that other collateral is your
principal residence or non-purchase money household goods.

BORROWER NAME

ACCOUNT NUMBER

The following provision applies to all other borrowers: You will be in default if: (1)
you fail to make any payment on time; (2) if you fail to keep any promises you have
made under this Agreement or under other Agreements you have with us; (3) if you
die; (4) if you file a petition in bankruptcy or have a bankruptcy petition filed against
you, or if you become involved in any insolvency, receivership or custodial
proceeding; (5) if anyone attempts to take any of your funds held by us via legal
process or if you have a judgment or tax lien filed against you; (6) if you make any
false, inaccurate, or misleading statements in any credit application or credit update;
or (7) if we, in good faith, believe that your ability to repay what you owe is or soon
will be impaired, or that you are unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of your full
account balance without giving you notice. If immediate payment is demanded, you
agree to continue paying interest charges and fees until what you owe has been
paid, and any shares that were given as security for your account may be applied
towards what you owe. You agree to pay all reasonable costs of collection, including
court costs and attorney's fees, and any costs incurred in the recovery of the Card,
subject to applicable law. Even if your unpaid balance is less than your credit limit,
you will have no credit available during any time that any aspect of your account is in
default.
Actions Upon Default: If applicable state law requires a notice of default and an
opportunity to cure that default, we will grant you those rights before we exercise our
remedies. If you default, upon the expiration of any applicable rights to cure that
default, we may declare all amounts immediately due and payable, and you must
immediately pay us the total unpaid balance (as well as interest charges to date, if
allowed by applicable law), any late charges, and all collection costs permitted under
law. The principal balance in default shall bear interest at the contract rate, or a
default rate if one has been disclosed to you, or another rate if required by applicable
law. If immediate payment is demanded, you agree to continue paying interest
charges and fees until what you owe has been paid, and any shares that were given
as security for your account may be applied towards what you owe. Even if your
unpaid balance is less than your credit limit, you will have no credit available during
any time that any aspect of your account is in default.
Costs of Collection: You shall pay all costs incurred by us in collecting any amount
you owe or in enforcing or protecting our rights. Costs of collection include, but are
not limited to, collection agency fees. The following applies to all borrowers except
Wisconsin borrowers: Costs of collection include reasonable attorney’s fees for any
action taken by any attorney as allowed by applicable law in order to collect this loan
or preserve or protect our rights and remedies, including, without limitation, pre-suit
demands for payment, pre-suit mediation or settlement negotiations, investigation
and assessment of our rights, participation in bankruptcy cases, matters, and
proceedings (including, without limitation, filing proofs of claim, pursuing reaffirmation
agreements, attending meetings of creditors, and pursuing complaints, motions, and
objections that relate in any way to the credit union's collateral or right to payment),
collateral disposition, non- bankruptcy suits and/or administrative actions, and
appeals. For Alabama borrowers: attorney's fees after default shall not exceed 15%
of the unpaid debt, or such higher amount as a court may allow. For Georgia
borrowers: attorney's fees shall not exceed 15% of principal and accrued interest, or
such higher amount as a court may allow. For Wisconsin borrowers: We may collect
only those costs and fees allowed by the Wisconsin Consumer Act, other applicable
Wisconsin law, or by a court of competent jurisdiction.
Suspension of electronic services and access to share or deposit accounts.
Subject to applicable law, we may suspend some or all electronic services and
access to your checking or other account(s) if you become delinquent on any of your
credit card or deposit obligations to us or you cause a loss to us. We shall not be
liable to you in any regard in connection with such suspension of services.
Additional Benefits/Card Enhancements. We may from time to time offer
additional services to your Account at no additional cost to you. You understand that
we are not obligated to offer such services and may withdraw or change them at any
time.
Convenience Checks. We may, at our discretion, issue checks to you which may
be used for any purpose other than making a payment for credit to your account. By
signing such check, you authorize us to pay the item for the amount indicated and
post such amount as a cash advance to your account. We do not have to pay any
item which would cause the outstanding balance in your account to exceed your
credit limit.
Credit Information. We may from time to time request personal information from
you or obtain credit reports from the credit reporting agencies for the purpose of
updating your credit status. Your failure to provide such information when requested
by us may result in suspension of credit privileges under this Agreement, including
your ability to obtain any future advances by any means. You authorize us to
investigate your credit standing when opening or reviewing your account. You
authorize us to disclose information regarding your account to credit bureau and
creditors who inquire about your credit standing.

Foreign Transactions; Currency Conversion. Purchases and cash advances
made in foreign currencies will be billed to you in U.S. dollars. The conversion rate in
dollars will be a rate selected by the card company from a range of rates available in
wholesale currency markets for the applicable central processing date, which rate
may vary from the rate the card company itself receives, or the governmentmandated rate in effect for the applicable central processing date in each instance. All
transactions processed outside of the United States (which may include internet
transactions) will be charged a foreign transaction fee in the amount disclosed on
your Truth-in-Lending Statement (as amended from time to time).
Termination; Change-in-Terms. We may, by written notice, terminate this
Agreement at any time, subject to applicable law. You may terminate this Agreement
by written notice. Termination by either party shall not affect your obligation to repay
any balance on your account resulting from use of the Card as well as Interest
Charges and fees incurred. We may change the terms of this Agreement, including
the method of calculating the periodic rate, at any time, by written notice, subject to
applicable law. Use of the Card constitutes agreement and acceptance of any
change in terms, unless applicable law requires otherwise. Our failure to exercise
any of our rights or to take any action shall not constitute a waiver of those rights, or
an amendment or change in any of the terms of this Agreement.
Late or Partial Payments. Any payment that delays the reduction of your balance
will increase your total interest costs. Partial payments or prepayments will not delay
your next scheduled payment - you will still need to make the minimum scheduled
payment by the next scheduled due date to keep your account current. We may
accept late payments, partial payments, checks or money orders marked "payment
in full" and such action shall not constitute final settlement of your account or a waiver
or forgiveness of any amounts owing under this Agreement.
Enforcement. We do not lose our rights under this or any related agreement if we
delay enforcing them. If any provision of this or any related agreement is determined
to be unenforceable or invalid, all other provisions remain in full force and effect.
Returns and Adjustments. Merchants and others who honor the Card may give
credit for returns or adjustments, and they will do so by submitting a credit slip which
will be posted to your account. If your credits and payments exceed what you owe
us, the amount will be applied against future purchases and cash advances. If the
credit balance amount is $1 or more, it will be refunded upon your written or verbal
request.
Plan Merchant Disputes. We are not responsible for the refusal of any plan
merchant or financial institution to honor your Card. Also, we are not responsible for
goods or services that you purchase with the Card unless: (a) your purchase was
made in response to an advertisement we sent or participated in sending you; or (b)
your purchase cost more than $50 and was made from a plan merchant in your state
or within 100 miles of your home; and only if you have made a good faith attempt,
but have been unable to obtain satisfaction from the plan merchant. You must
resolve all other disputes directly with the plan merchant. We do not warrant any
merchandise or services purchased by you with the Card.
Statements and Notices. Statements and notices will be mailed to you at the most
recent postal address or e-mail address (if you have elected to receive such
documents via electronic means) you have given us. Notice sent to any one of you
will be considered notice to all.
Notification of Address Change. You will notify us promptly if you change your
address for any reason. In order to prevent identity theft, your identity may need to be
verified before we act upon the notification.
Copy Received. You acknowledge that you have received a copy of this Agreement.
Governing Law. This Agreement shall be construed under federal law and state law
in the state in which we are primarily located, and the venue shall be located in the
county and state in which we are primarily located. Operating regulations of
Mastercard may also apply. This Agreement is the contract that applies to all
transactions even though the sales, cash advance, convenience check, credit or
other slips you sign or receive may contain different terms.
NOTICE TO UTAH BORROWERS: This written agreement is a final expression of
the agreement between you and the Credit Union. This written agreement may not
be contradicted by evidence of any oral agreement.
NOTICES TO WISCONSIN BORROWERS: (1) If you are married and are extended
individual credit, Wis. Stat. 766.56(3)(b) requires us to notify your spouse of the
extension of credit. If we receive written notice of termination from your spouse
pursuant to Wis. Stat. Section 766.565(5), we may declare you in default of the Plan
and call the entire extension of credit due and payable notwithstanding Wis. Stat.
Sections 425.103 and 425.105. If the Plan is called due and payable, you may have
certain rights to cure the default. (2) Additionally, no provision of a marital property
agreement, a unilateral agreement under Wis. Stat. 766.59, or a court decree under
Wis. Stat. 766.70 adversely affects our interests unless prior to the time the credit is
extended, we are furnished with a copy of the agreement or statement, or have
actual knowledge of the adverse provision when the obligation is incurred.

page 2 of 3

BORROWER NAME

ACCOUNT NUMBER

BILLING RIGHTS NOTICE
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es)
listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if
you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you
do, we are not required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will send
you a statement of the amount you owe and the date payment is due. We
may then report you as delinquent if you do not pay the amount we think
you owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card, and you have tried in good faith to correct the problem
with the merchant, you may have the right not to pay the remaining amount
due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your
credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address(es) listed on your statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

page 3 of 3

Vibrant Credit Union
1900 52nd Avenue
Moline, IL 61265
(309) 796-7500

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
accurate as of ________________.You can contact us toll free at (800) 323-5109 or 1900 52nd Avenue, Moline, IL 61265 to
inquire if any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:

Annual Percentage Rate (APR)
for Purchases, Cash Advances,
& Balance Transfers
Penalty APR and When it
Applies

Vibrant Credit Mastercard /
Vibrant Credit Secured Mastercard

Vibrant Credit Rewards Mastercard /
Vibrant Credit Secured Rewards Mastercard

9.90%- 18.00%

18.00%- 23.99%

depending on your credit history

depending on your credit history

18.00%
This APR may be applied to your
account if you make a payment that
is late 60 days or more.

23.99%
This APR may be applied to your account if
you make a payment that is late 60 days or
more.

How Long Will the Penalty APR
Apply? If we increase your APRs
due to a late payment, we may keep
them at this higher level on existing
and new balances until you make six
consecutive on-time payments.

How Long Will the Penalty APR Apply? If
we increase your APRs due to a late
payment, we may keep them at this higher
level on existing and new balances until you
make six consecutive on-time payments.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not
charge you interest on purchases if you pay your entire new purchase balance by the
due date each month. We will begin charging interest on cash advances and balance
transfers on the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http:// www.consumerfinance.gov/learnmore

FEES:

Fees to Open or Maintain your
Account
• Annual Fee:
• Application Fee:
Transaction Fees
• Balance Transfer:
• Cash Advance:
• Foreign Transaction:

Vibrant Credit Mastercard /
Vibrant Credit Secured Mastercard

Vibrant Credit Rewards Mastercard /
Vibrant Credit Secured Rewards Mastercard

None
None

$0.00 for the first year; $50.00 thereafter
None

None
None
1% of each transaction in U.S. dollars if the transaction involves a currency conversion
1% of each transaction in U.S. dollars if the transaction does not involve a currency
conversion
SEE NEXT PAGE for more important information about this account

9009 LASER FPDF FI15968 Rev 8-2018

page 1 of 2

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

FEES:
Penalty Fees
• Late Payment:
• Over-the-Credit Limit:
• Returned Payment:

If your payment is more than 10 days late, up to $25.00 for the first offense and up to
$35.00 each if 2 or more offenses occur within 6 months.
If you exceed your credit limit, up to $25.00 for the first offense and up to $35.00 each
if 2 or more offenses occur within 6 months.
If your payment is returned for any reason, up to $25.00 for the first offense and up to
$35.00 each if 2 or more offenses occur within 6 months.

How We Will CalculateYour Balance: We use a method called "average daily balance (including new purchases)."

page 2 of 2

